<html>
<title> - DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                       WEDNESDAY, APRIL 30, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senator DeWine.

                      DISTRICT OF COLUMBIA COURTS

STATEMENTS OF:
        ANNICE M. WAGNER, CHAIR, JOINT COMMITTEE ON JUDICIAL 
            ADMINISTRATION IN THE DISTRICT OF COLUMBIA
        DOUG NELSON, DIRECTOR, PROPERTY DEVELOPMENT DIVISION, PUBLIC 
            BUILDINGS SERVICE, NATIONAL CAPITAL REGION, GENERAL 
            SERVICES ADMINISTRATION
ACCOMPANIED BY:
        RUFUS KING III, CHIEF JUDGE, SUPERIOR COURT OF THE DISTRICT OF 
            COLUMBIA, AND MEMBER, JOINT COMMITTEE ON JUDICIAL 
            ADMINISTRATION IN THE DISTRICT OF COLUMBIA
        ANNE WICKS, EXECUTIVE OFFICER, D.C. COURTS AND SECRETARY, JOINT 
            COMMITTEE ON JUDICIAL ADMINISTRATION IN THE DISTRICT OF 
            COLUMBIA







                OPENING STATEMENT OF SENATOR MIKE DEWINE

    Senator DeWine. Good morning. This hearing will come to 
order. Today we are convening a second hearing regarding the 
fiscal year 2004 budget for the District of Columbia Courts. At 
our first hearing last month, there was some confusion as to 
capital funds required for fiscal year 2004.
    My understanding is that since that hearing the courts have 
worked closely with GSA to determine their actual capital 
requirements for the next 2 years. According to the court's 
written testimony, $244.8 million is being requested for fiscal 
year 2004. This is an increase of $38.5 million above the 
fiscal year 2003 enacted budget, and $36.6 million more than 
the President's budget request.
    We would like to hear the witnesses today as to how they 
plan to use these additional resources and how this increase 
would work, including the success of the Family Court, as well 
as the operations of the Superior Court. We are also interested 
to learn how the court's facilities plan will be implemented in 
a time line for completion of these important capital projects.
    These capital projects will play a key role in providing a 
safe family friendly environment as is required by the Family 
Court Act.
    Today our GSA witness will describe the important role his 
agency will have as a project manager for the renovation and 
construction of court facilities.
    I'm also curious to hear how the time lines of the D.C. 
Courts' construction plans compare to other courthouse 
constructions in other jurisdictions.
    Given the constraints of the recently passed budget 
resolution, frankly, it's going to be difficult for this 
subcommittee to provide the increases above the President's 
request for the courts. I would like to hear from Judge Wagner 
how the President's proposed budget level, which is $36.6 
million below the court's request is going to affect the 
court's operations.
    Also, I recognize that the most significant construction 
costs will occur in fiscal year 2005. I urge the courts to meet 
with officials from OMB as soon as possible to ensure that the 
capital costs are requested in the President's fiscal year 2005 
budget request.
    The witnesses will be limited to 5 minutes for opening 
remarks, and copies of your written statements will be placed 
in the record in their entirety.
    Senator Strauss has submitted a written statement to be 
included in the record.
    [The statement follows:]
               Prepared Statement of Senator Paul Strauss
    As the elected United States Senator for the District of Columbia, 
and an attorney who practices in the family court division of our local 
courts I would like to state for the record that I fully support the 
fiscal year 2004 Budget Request for the District of Columbia Courts. As 
an elected Senator for the District of Columbia, I stand by the Court 
System of District of Columbia. It is vital that the District of 
Columbia Court System be fully funded in the amount asked for today.
    I respect the positions of all of the witnesses that are here today 
and especially know that Judges King, Wagner, and their staff have 
worked hard on their budget proposal. I know that the fiscal marks that 
he is testifying in support of today are what we need in order for the 
D.C. Court System to continue to operate at full capacity. Since, as 
the D.C. Senator, I myself cannot vote on this appropriation I am 
limited to merely asking you to support his proposal.
    In this hearing, the witnesses have presented the fiscal marks that 
they request regarding capitol improvements requirements of the D.C. 
Courts in fiscal year 2004. With the cooperation of and significant 
input from General Services Administration, the D.C. Courts have come 
up with a Master Plan for Facilities. This plan incorporates 
significant research, analysis, and planning. I support this plan and 
am happy that this subcommittee supports it as well.
    However, as much as I appreciate having the support from this 
subcommittee on the Master Plan for Facilities, I respectfully state 
that this matter is not in the Office of Management and Budget or the 
President's hands. I know that I need not remind you that Congress has 
the final say over how much money is spent and it is very unlikely that 
the President will veto the entire bill if more money is appropriated 
on this project than is written into the President's budget. Of course, 
that does not mean that Judges Wagner, King, and their staff should not 
take the advice of Chairman DeWine and strongly advocate for this 
project to OMB. It is still very important to have this project written 
into the President's fiscal year 2005 Budget. Having it in there will 
of course make it more likely that the money will be appropriated for 
the project.
    The District of Columbia Courts' fiscal year 2004 request is a 
fiscally responsible budget that continues to build on past 
achievements to meet current and future needs. Some of the needs that 
will be met by the budget proposal submitted by the D.C. Courts are 
enhancing public security, investing in human resources, investing in 
information technology, expanding strategic planning and management, 
and strengthening services to families.
    Moreover, having stated the importance of fully funding the 
District of Columbia Court System, I would like to emphasize the 
importance of fully funding the Court's Defender Services line item. In 
order to provide adequate representation to families in crisis we need 
to fully fund Defender Services. All of this Committee's good work on 
Family Court reform is in jeopardy without the resources to back it up. 
The Family Court is an institution that must protect the District's 
most vulnerable citizens--its children, as well as provide countless 
other, more mundane yet important, legal functions common to every 
jurisdiction. The safety of children should not and will not be 
compromised due to political agendas or simple lack of funding. 
Although the budget provides training for new attorneys, these children 
are best served by experienced advocates. We are in danger of losing 
our most experienced child advocates due to budget cuts.
    Once again this year the D.C. Court System asked for an increase in 
the hourly rate paid to attorneys that provide legal services to the 
indigent including those attorneys that work hard to represent abused 
and neglected children ad guardia and ad litems in Family Court. The 
first fee increase in nearly a decade was implemented in March of 2002 
when it was increased to the present rate of $65 per hour. In the 
fiscal year 2004 request the Courts recommend an incremental increase 
from the current $65 an hour to $75 per hour and eventually to $90 per 
hour. The reason that this adjustment is so important is that the 
Federal court-appointed lawyers, literally across the street already 
get paid $90 an hour to do very similar work. Therefore, the disparity 
in pay between the two positions creates a disincentive amongst the 
``experienced'' attorneys to work for Defender Services in D.C. Court. 
I call on this Subcommittee to once again eliminate this disincentive. 
It was unfortunate that the fiscal year 2003 Appropriations Bill that 
came out of Conference and was signed into law by the President did not 
include this raise that this Committee, and full Senate rightly 
included into their mark up of the bill. I urge this Subcommittee to 
fully fund the requested increase in the defender services line item in 
the bill for fiscal year 2004 just like they did for fiscal year 2003, 
and then fight vigorously to defend that mark if a conference becomes 
necessary.
    Senator Landrieu has stated that the District of Columbia Family 
Court should be a ``showcase'' for the whole country. I firmly agree 
with that statement and add that as an attorney who practices regularly 
in the D.C. Family Court, I believe that it is thankfully on its way 
toward being that ``showcase''. However, there is continued need for 
improvement. I know that this Subcommittee has been firmly committed to 
the D.C. Family Court. On behalf of my constituents I thank you for all 
your hard work and dedication and I look forward to your continued 
cooperation. There has been strong bipartisan support in this 
Subcommittee for the D.C. Family Court. In particular, I commend 
Senators DeWine and Landrieu for all the great work that they have done 
on this important issue. Both of them have treated the D.C. Family 
Court as if it were a court in their own States.
    In the long term, a family-friendly showcase state-of-the-art 
Family Court with its own identity and a separate entrance is included 
in the Master Plan that the D.C. Courts and GSA have compiled. I am 
also happy to see that the Master Plan takes into account the 
transition from the Family Court of today to the Family Court we will 
see in the future. The two-pronged approach that includes the 
transition, the final step means that this plan is well thought out, 
and they are ready for the money to be appropriated for this important 
project.
    In conclusion, I would like to thank the Subcommittee for holding 
this important hearing and Judges Wagner and King as well as Mr. Doug 
Nelson, Director-Property Development, GSA for working hard on the 
Master Plan for Facilities and testifying today. I urge this 
Subcommittee to take the budget proposals submitted today into strong 
consideration. Finally, let me take this opportunity to thank Matt 
Helfant of my staff for his assistance in preparing this statement. I 
look forward to further hearings on this topic and I am happy to 
respond to any requests for additional information.

    Senator DeWine. Judge Wagner is, of course, the Chief Judge 
of the District of Columbia Court of Appeals. We are also 
joined by Mr. Doug Nelson, Director of the Property Development 
Division, Public Building Services, National Capital Region, 
General Services Administration. And of course also on the 
panel is Judge King, who we welcome back again as well.
    Mr. Nelson, why don't we just start with you, and just tell 
us where you think we are, what do we need to know.

                      STATEMENT OF DOUGLAS NELSON

    Mr. Nelson. Thank you, Mr. Chairman, Senators. Thank you 
for this opportunity to discuss the fiscal year 2004 capital 
budget request for the District of Columbia Courts. I'm Doug 
Nelson and I am appearing here in my capacity of the Director 
of the GSA National Capital Region's Property Development 
Division. The Property Development Division is part of the GSA 
Public Building Service, and we provide program and project 
management services for major new construction, modernization, 
lease construction, renovations, and repair and alteration 
projects for Federal facilities.
    Development of large, complex and technically challenging 
projects of historical significance is not only part of our 
Nation's legacy, but also GSA's. Our projects stand as a 
testimony to the outstanding level of quality and service we 
deliver to our customers.
    GSA is pleased that the D.C. Courts have turned to us to 
provide project management services for their projects arising 
from the District of Columbia Family Court Act of 2001. GSA has 
been supporting D.C. Courts' projects ranging in scope from 
planning to minor repairs and alterations to major renovation 
and new construction. We are now directly involved with 
projects encompassing three existing buildings and a new 
parking garage, all of which are located in and around 
Judiciary Square.
    The projects consist of the Family Court Interim Plan, 
interior renovation of Building B to house, among others, the 
Small Claims Court, the Landlord-Tenant Court, and 
administrative offices. It also includes the partial renovation 
of approximately 30,000 occupiable square feet of the Moultrie 
Courthouse John Marshall level to house part of the Family 
Court; the renovation and adaptive reuse of the historic 1820's 
old D.C. Courthouse to house the D.C. Court of Appeals, 
including the new construction of the underground parking 
garage; and expansion of the Moultrie Courthouse to meet the 
space needs of the Superior Court to provide state of the art 
facilities for the Family Courts.
    These projects are related to one another, since room for 
the Family Court is being created within the Moultrie 
Courthouse by a combination of relocation of the Court of 
Appeals to the Old Courthouse, the movement of the current 
Moultrie occupants to Building B, and the Moultrie John 
Marshall level renovation. Presently, all projects that I have 
identified are underway, although each are at different stages 
of completion.
    The current status of each project: An 8(a) contractor has 
been awarded a design-build contract for the Building B 
interior renovations. The project is in the demolition phase of 
construction and occupancy is scheduled for December of 2003.
    The Moultrie Courthouse John Marshall level renovation and 
creation of new courtrooms for the Family Court is being 
designed by the architectural firm Oudens and Knoop.
    The architectural firm of Beyer, Blinder, Belle, architects 
and planners, has recently been selected for the Old Courthouse 
and the parking garage, and we are using GSA's Design 
Excellence program for that selection.
    The architectural firm of Gensler has been recently 
selected for the Moultrie Courthouse expansion utilizing the 
Design Excellence program.
    For your information, I have provided individual fact 
sheets for the Building B project, the Old Courthouse and 
garage project, and the Moultrie Courthouse expansion project. 
These fact sheets provide more detailed information on each of 
the projects.
    In addition to the construction projects I have described, 
GSA is also working with the D.C. Courts to prepare a master 
plan for Judiciary Square at the request of the National 
Capital Planning Commission. A draft of this plan is scheduled 
for presentation to the Commission early this summer, and 
approval of this plan is essential for continued progress of 
the projects.

                           PREPARED STATEMENT

    Mr. Chairman and Senators, we look forward to working with 
you throughout the appropriate appropriations process, and I 
thank you for the opportunity to discuss the fiscal year 2004 
capital budget request of the Courts as it relates to these 
projects. I would be pleased to answer any questions.
    [The statement follows:]
                   Prepared Statement of Doug Nelson
    Mister Chairman, Senators, thank you for this opportunity to 
discuss the fiscal year 2004 capital budget request of the District of 
Columbia Courts. I am Doug Nelson, and I am appearing in my capacity as 
the Director of the GSA National Capital Region Property Development 
Division. The Property Development Division is part of the GSA Public 
Buildings Service and we provide program and project management 
services for major new construction, modernization, lease construction, 
renovations, and repair and alteration projects for Federal facilities.
    Development of large, complex and technically challenging projects 
of historical significance is not only part of our Nation's legacy, but 
also GSA's. Our projects stand as testimony to the outstanding level of 
quality and service we deliver to our customers.
    GSA is pleased that the D.C. Courts have turned to us to provide 
project management services for their projects arising from the 
District of Columbia Family Court Act of 2001. GSA has been supporting 
D.C. Courts' projects ranging in scope from planning to minor repairs 
and alterations to major renovation and new construction. We are now 
directly involved with projects encompassing three existing buildings 
and a new parking garage, all of which are located in and around 
Judiciary Square.
    The projects consist of:
  --Family Court Interim Plan:
    --Interior renovation of Building ``B'' to house, among others, the 
            Small Claims Court, the Landlord-Tenant Court, and 
            administrative offices;
    --Partial renovation of approximately 30,000 occupiable square feet 
            of the Moultrie Courthouse John Marshall level to house 
            part of the Family Court;
  --Renovation and adaptive reuse of the historic 1820's Old D.C. 
        Courthouse to house the D.C. Court of Appeals, including the 
        construction of a new underground parking garage; and
  --Expansion of the Moultrie Courthouse to meet the space needs of the 
        Superior Court and to provide state of the art facilities for 
        the Family Court.
    These projects are related to one another, since room for the 
Family Court is being created within the Moultrie Courthouse by a 
combination of the relocation of the Court of Appeals to the Old 
Courthouse, the movement of current Moultrie occupants to Building 
``B'', and the Moultrie John Marshall level renovation. Presently, all 
of the projects that I have identified are underway, although each is 
at a different stage of completion.
    The current status of each project is:
  --An 8(a) contractor has been awarded a design-build contract for the 
        Building ``B'' interior renovations. The project is in the 
        demolition phase of construction and occupancy is scheduled for 
        December 2003;
  --The Moultrie Courthouse John Marshall level renovation and creation 
        of new courtrooms for the Family Court is being designed by the 
        architectural firm Oudens and Knoop;
  --The architectural firm Beyer Blinder Belle has recently been 
        selected for the Old Courthouse and the parking garage 
        utilizing GSA's Design Excellence program; and
  --The architectural firm Gensler has recently been selected for the 
        Moultrie Courthouse expansion utilizing the Design Excellence 
        program.
    For your information, I have prepared individual fact sheets for 
the Building ``B'' project, the Old Courthouse and garage project, and 
the Moultrie Courthouse expansion project. These fact sheets provide 
more detailed information on each of the projects.
    In addition to the construction projects I have described, GSA is 
also working with the D.C. Courts to prepare a Master Plan for 
Judiciary Square at the request of the National Capital Planning 
Commission. A draft of this plan is scheduled for presentation to the 
Commission early this summer. Approval of this plan is essential to the 
continued progress of the projects.
    Mister Chairman, Senators, we look forward to working with you 
throughout the appropriations process, and I thank you for the 
opportunity to discuss the fiscal year 2004 capital budget request of 
the Courts as it relates to these projects. I would be pleased to 
address any questions.
      fact sheet.--d.c. courts building ``b'' interior renovations
Background
    This project is on behalf of the D.C. Courts in accordance with the 
Family Court Act of 2001. The scope of work is the renovation of the 
interior of Building ``B'', located on 4th Street, NW, between E and F 
Streets. Building ``B'' has three above-grade floors and an occupiable 
basement totaling 68,000 OSF. Renovation of the building is being 
carried out in two phases, with the building remaining partially 
occupied during each phase. When the renovation project is complete, 
Building ``B'' will house the Landlord-Tenant Court and the Small 
Claims Court, as well as other Superior Court offices.
Current Status
    The first phase of the project is currently underway. A design-
build contract was awarded to Dalco, Inc., an 8(a) construction 
contractor working in conjunction with the architectural firm of Leo A 
Daly. The demolition portion of the first phase is nearing completion. 
The design of the new work is scheduled for completion in April 2003, 
with construction to commence immediately thereafter.
  --Construction Manager.--A Construction Management (CM) contract was 
        awarded by GSA in February 2003 for the D.C. Courts projects, 
        including the Building ``B'' renovation. This contract includes 
        management of the design and construction phases of the 
        project.
  --Design.--Design is scheduled for completion in April 2003.
  --Construction.--Construction is ongoing, with the first phase new 
        construction scheduled to commence in April 2003.
Milestones
    Award (Design-Build).--December 2002.
    Design Complete.--April 2003.
    Occupancy.--December 2003.
Cost
    Design & Construction.--$13,500,000 (fiscal year 2003).
    M&I.--$1,500,000 (fiscal year 2003).
    Total Budget.--$15,000,000 (fiscal year 2003).
Contact
    Doug Nelson, Director, GSA-NCR Property Development Division.
    fact sheet.--d.c. courts old d.c. courthouse and parking garage
Background
    This project is on behalf of the D.C. Courts and includes the 
restoration and adaptive reuse of the historic Old D.C. Courthouse in 
Judiciary Square in Washington, DC. The project also includes a new 
underground parking garage adjacent to the Old Courthouse with space 
for approximately 250 vehicles, which will be shared with the U.S. 
Court of Appeals for the Armed Forces (USCAAF). Designed in 1820, the 
Old Courthouse currently comprises 96,000 SF. An additional 37,000 SF 
addition to the Old Courthouse is planned as part of this project, 
bringing the completed total square footage to 133,000. When complete, 
the building will house the D.C. Court of Appeals.
Current Status
    The project is currently in the design procurement phase. An 
Architect/Engineer (A/E) has been selected utilizing GSA's Design 
Excellence program, and it is anticipated that the design will commence 
upon award in June 2003.
  --Master Plan.--A D.C. Courts Judiciary Square Master Plan is being 
        developed at the request of the National Capital Planning 
        Commission (NCPC). The draft report is planned for a June 6, 
        2003 submission to NCPC. NCPC approval of this plan is critical 
        to the continued progress of the project.
  --Construction Manager.--A Construction Management (CM) contract was 
        awarded by GSA in February 2003 for the D.C. Courts projects, 
        including the Court of Appeals and the parking garage. This 
        contract includes management of the design and construction 
        phases of the project.
  --Design.--An A/E has been selected based on technical merit, and 
        cost negotiations are planned to commence in early May 2003. A 
        single design contract will be awarded, but the A/E will 
        produce separate sets of construction documents for the garage 
        and the Courthouse.
  --Construction.--The parking garage and the Old Courthouse are to be 
        constructed utilizing separate construction contracts. 
        Construction of the parking garage is planned to commence in 
        September 2004, with completion planned in December 2005. The 
        Old Courthouse construction is scheduled to begin in March 2005 
        and is scheduled for occupancy in March 2007.
Milestones
    Design Award.--June 2003.
    Design Complete.--Garage: February 2004; Courthouse: August 2004.
    Construction Award.--Garage: September 2004; Courthouse: March 
2005.
    Garage Complete.--December 2005.
    Courthouse Occupancy.--March 2007.
Remaining Cost
    GSA has received fiscal year 2003 and prior year funds from the 
D.C. Courts for this project. In addition, part of the garage cost is 
to be funded by the USCAAF. A summary of the total projected D.C. 
Courts project costs is as follows, with the remaining funds required 
from the D.C. Courts:
    Design.--Courthouse & Garage $5.4M (fiscal year 2003).
    M&I.--Courthouse & Garage $7.3M ($1.7M in fiscal year 2003; $0.7M 
in fiscal year 2004; $4.9 in fiscal year 2005).
    Construction.--Courthouse & Garage $66.5M ($8.8M in fiscal year 
2004; $57.7M in fiscal year 2005).
    Total Cost.--$79.2M ($7.1M in fiscal year 2003; $9.5M in fiscal 
year 2004; $62.6M fiscal year 2005).
    Remaining D.C. Courts Funding.--$74.1M ($2.0M in fiscal year 2003; 
$9.5M in fiscal year 2004; $62.6M fiscal year 2005).
Contact
    Doug Nelson, Director, GSA-NCR Property Development Division.
         fact sheet.--d.c. courts moultrie courthouse expansion
Background
    This project is on behalf of the D.C. Courts in accordance with the 
Family Court Act of 2001. The scope of work is the expansion of the H. 
Carl Moultrie I Courthouse building to provide more room for the 
Superior Court's Family Court and to provide space for a new Family 
Services Center. The Moultrie Courthouse is located on the south side 
of Judiciary Square facing Indiana Avenue, NW. The project consists of 
a 74,000 SF expansion of the building consisting of a 64,000 SF 
addition along the building's south side and a new 10,000 SF pavilion 
located on the north side. Related projects in Judiciary Square arising 
from the Family Court Act include interior renovation of D.C. Courts 
Building ``B'' and the partial renovation of the Moultrie Courthouse 
John Marshall level.
Current Status
    The project is currently in the design procurement phase. An 
Architect/Engineer (A/E) has been selected utilizing GSA's Design 
Excellence program, and it is anticipated that the design will commence 
upon award in August 2003.
  --Master Plan.--A D.C. Courts Judiciary Square Master Plan is being 
        developed at the request of the National Capital Planning 
        Commission (NCPC). The draft report is planned for a June 6, 
        2003 submission to NCPC. NCPC approval of this plan is critical 
        to the continued progress of the project.
  --Construction Manager.--A Construction Management (CM) contract was 
        awarded by GSA in February 2003 for the D.C. Courts projects, 
        including the Moultrie Courthouse expansion. This contract 
        includes management of the design and construction phases of 
        the project.
  --Design.--An A/E has been selected based on technical merit, and 
        cost negotiations are planned to commence in July 2003.
  --Construction.--Construction is planned to commence in May 2005.
Milestones
    Design Award.--August 2003.
    Design Complete.--September 2004.
    Construction Award.--May 2005.
    Occupancy.--June 2009.
Remaining Cost
    Design.--$3,600,000 (fiscal year 2003).
    M&I.--$1,200,000 (fiscal year 2003).
    M&I.--$4,800,000 (fiscal year 2005).
    M&I.--$950,000 (fiscal year 2008).
    Construction.--$44,000,000 (fiscal year 2005).
    Construction.--$7,700,000 (fiscal year 2008).
    Total Remaining.--$62,300,000 ($4.8M in fiscal year 2003; $48.9M in 
fiscal year 2005; $8.6M in fiscal year 2008).
Contact
    Doug Nelson, Director, GSA-NCR Property Development Division.

    Senator DeWine. Mr. Nelson, thank you very much. You set a 
new record. You only took 4 minutes to testify.
    Judge Wagner, you do not have to follow that precedent. We 
will give you his extra minute. Judge Wagner, go ahead.

                     STATEMENT OF ANNICE M. WAGNER

    Chief Judge Wagner. Good morning, Mr. Chairman, and 
Senators. Thank you so much for this opportunity to address 
further our capital improvement requirements for the District 
of Columbia Courts in fiscal year 2004. For the record, I am 
Annice Wagner, and I am the Chair of the Joint Committee on 
Judicial Administration in the District of Columbia, which is 
the policy-making body for the District of Columbia Courts.
    With me is Chief Judge Rufus King III, who is a member of 
our Joint Committee and who is the chief judge of our trial 
court, the Superior Court of the District of Columbia. We also 
have other staff members present with us. We have Anne Wicks, 
our Executive Officer, and secretary to the Joint Committee, 
and Mr. Joseph Sanchez, the Courts' Administrative Officer. 
They are here to provide detailed information to the committee.
    The Courts' capital funding requirements are significant, 
as we know. That is because they include funding for projects 
critical to maintaining, preserving and building safe and 
functional courthouse facilities which are essential to meeting 
the heavy demands of the administration of justice in our 
Nation's capital.
    Since we appeared before you, we have held several, or a 
series of productive meetings with the General Services 
Administration, which as you know, is the program and project 
manager for the Courts' construction and renovation projects. 
As with any complex construction project, we are informed that 
ongoing refinement of the design, acquisition, and construction 
plans have led to changes in project approaches, which affect 
the Courts' capital funding request for fiscal year 2004.
    Two points should be emphasized about these changes at the 
outset. First, these changes do not change the timing for the 
completion of the adaptation of the Old Courthouse for use by 
the D.C. Court of Appeals, the Moultrie Courthouse expansion, 
or the interim and final Family Court plans which will be 
discussed more fully later. And second, they merely shift 
capital costs from fiscal year 2004 to fiscal year 2005. The 
shift in timing of funding has had no impact on the 
construction time line, as you have heard, and all capital 
projects remain on schedule, at least as of today.
    Recent studies by GSA have shown the Courts' space needs, 
which will occur over the next decade, and indeed show a 
current shortfall in space. To meet these needs, we have three 
major approaches.
    First, renovation of the Old Courthouse for readaptive use 
will provide space for the District's court of last resort, the 
District of Columbia Court of Appeals, and this will free space 
in the Moultrie Courthouse for trial court operations, 
including our Family Court. Second, construction of an addition 
on the Moultrie Courthouse, a major portion of which will be 
developed as a separately accessible state of the art Family 
Court facility. And third, the future occupation of Building C, 
which is adjacent to the Old Courthouse.
    The readaptive use of the Old Courthouse is critical to 
meeting the space needs of the entire court system. Investment 
will improve efficiencies by co-locating the offices and 
support facilities and provide 37,000 square feet of critically 
needed space in the Moultrie building. As you know, the 
Moultrie building is uniquely designed to meet the needs of the 
trial court particularly, because of its secure corridors 
through which many many prisoners have to go each day to the 
various courtrooms within the building. It's well suited to 
that.
    It is also well suited to the planned addition for the 
Family Court, which will be facilitated through the master 
plan. This addition allows for development on C Street of a 
separate Family Court entrance, with its own name appearing on 
the building, which will provide a welcoming facility for 
families coming to the Court in the most difficult times of 
their lives, no doubt.
    The Moultrie building was built in 1978 for 44 trial 
judges, and today it is strained beyond its capacity in order 
to accommodate 62 trial judges and 24 magistrate judges, and 9 
appellate judges, as well as senior judges and support staff 
for the two courts.
    I would like to take the time to mention the historical and 
architectural significance of Judiciary Square, which lends 
dignity to the important business conducted by the Courts. The 
National Capital Planning Commission is requiring the Courts to 
develop a master plan for Judiciary Square, essentially an 
urban design plan, before construction can begin. The D.C. 
Courts are working with several stakeholders on the plan, 
including the United States Court of Appeals for the Armed 
Forces, the National Law Enforcement Museum, the Newseum, and 
the Metropolitan Police Department.
    The Old Courthouse is the centerpiece of Judiciary Square 
and is one of the oldest buildings in the District of Columbia. 
The architectural and historic significance of the building, 
which was built from 1821 to 1881, led to its listing on the 
National Register of Historic Places. Since it has been 
vacated, thanks to the support of Congress, we have been able 
to take steps to prevent its further deterioration and to begin 
planning for its readaptive use.
    The project will not only meet the critical needs of the 
Courts by serving as the new site for the Court of Appeals, it 
will also impart new life to one of the most significant 
historic buildings in Washington, DC. It will meet the needs of 
the Courts and it will benefit the community through an 
approach of strengthening a public institution, restoring a 
historic landmark, and stimulating the neighborhood's economic 
activities.
    There are a number of other buildings such as Buildings A, 
B and C, which are in our master plan. Work is underway to move 
the Superior Court's two highest volume courtrooms, small 
claims and landlord-tenant, into Building B by this year's end. 
This move will free much needed space in the Moultrie building, 
for the development of a Family Court, which will include three 
new courtrooms, three new hearing rooms, a centralized intake 
facility, a family friendly waiting area, and District of 
Columbia government liaison offices for Family Court matters.
    The Courts are pleased to be working with GSA on these 
projects, and Mr. Nelson has explained some of them to you. As 
we embark on projects of the large scope envisioned by the 
Master Plan for D.C. Courts Facilities, we are particularly 
pleased to have GSA's expert guidance and the guidance of the 
experts whom they have hired. The master plan incorporates 
significant research, analysis and planning by expert 
architects, engineers and design planning.
    I know that my time is short here, but there are two key 
features that I want to mention about the interim Family Court 
plan. During 2002, the Courts constructed and reconfigured 
space in the Moultrie Courthouse to accommodate the nine new 
Family Court magistrate judges and their support staff. The 
Court also constructed four new hearing rooms for Family Court 
magistrates hearing child abuse and neglect cases, and 
renovated space for the mayor's social services liaison office.
    A key element of the Family Court interim plan is the JM 
level construction in the Moultrie Courthouse of three new 
courtrooms and three new hearing rooms, a centralized Family 
Court intake center, a family friendly child waiting area, and 
a new Family Court entrance on the John Marshall Plaza. The JM 
level construction will be complete in the latter part of 2004. 
We are pleased to be able to report that.
    There is a long-term Family Court plan, as you know. I 
won't get into it right now, but I will await your questions. 
It is addressed in my written testimony to the committee.
    Unless these infrastructure needs are addressed, the 
functional capability of the Courts will decline and the 
quality of justice in the District of Columbia will be 
compromised. For fiscal year 2004, we ask for $52,889,000 for 
capital projects, and as you know, the bulk of the funding 
needed for the master space plan will come in fiscal year 2005.

                           PREPARED STATEMENT

    Again, thank you for the opportunity to discuss the Courts' 
capital budget request, and we look forward to working with you 
throughout the appropriations process. Chief Judge King and I 
would be pleased to address any questions.
    [The statement follows:]
                 Prepared Statement of Annice M. Wagner
    Mister Chairman, Senator Landrieu, thank you for this opportunity 
to address further the capital improvement requirements of the District 
of Columbia Courts in fiscal year 2004. For the record, I am Annice 
Wagner, and I am appearing in my capacity as the Chair of the Joint 
Committee on Judicial Administration in the District of Columbia. The 
Joint Committee, as the policy-making body for the District of Columbia 
Courts, has responsibility, for, among other matters, space and 
facilities issues in the District of Columbia's court system.
    With me this morning are Chief Judge Rufus King III, a member of 
the Joint Committee and the chief judge of our trial court, the 
Superior Court of the District of Columbia, Ms. Anne Wicks, the 
Executive Officer of the Courts and Secretary to the Joint Committee, 
and Mr. Joseph E. Sanchez, Jr., the Courts' Administrative Officer.
    The Courts' capital funding requirements are significant because 
they include necessary funding for projects critical to maintaining, 
preserving and building safe and functional courthouse facilities 
essential to meeting the heavy demands of the administration of justice 
in our Nation's Capital. Since appearing before you on March 12, 2003, 
the Courts have had a series of productive meetings with 
representatives of the General Services Administration (GSA), the 
agency serving as program and project managers for the Courts' 
construction and renovation projects. As with any complex construction 
project, we are informed that on-going refinement of the design, 
acquisition and construction plans have led to changes in project 
approaches which affect the Courts' capital funding requirements in 
fiscal year 2004 for these multi-year projects. Two points should be 
emphasized about these changes at the outset. First, these changes do 
not change the timing for the completion of the readaptation of the Old 
Courthouse for use by the District of Columbia Court of Appeals, the 
Moultrie Courthouse expansion, or the interim and final Family Court 
plans, which will be discussed more fully later. Second, the changes 
provided to us by GSA for fiscal year 2004 merely shift some capital 
costs from fiscal year 2004 to fiscal year 2005. The total cost of 
these projects and the GSA requirement for full funding at the 
beginning of construction remain. The shift in the timing of funding 
requirements has had no impact on the construction timeline, and all 
capital projects remain on schedule.
                          facilities overview
    Let me begin by outlining an inventory of the Courts' major 
facilities and key features of our Master Space Plan for their use. To 
administer justice in our Nation's Capital, the D.C. Courts presently 
maintain 645,000 occupiable square feet of space in Judiciary Square. 
Specifically, the Courts are responsible for four buildings in the 
square: the Old Courthouse at 451 Indiana Avenue, the Moultrie 
Courthouse at 500 Indiana Avenue, N.W., and Buildings A and B, which 
are located between 4th and 5th Streets and E and F Streets, N.W. In 
addition, when the District government's payroll office vacates 
Building C, the old Juvenile Court, we anticipate that it will be 
returned to the Courts' inventory. Recent studies by the General 
Services Administration have documented the D.C. Courts' severe space 
shortage. In 2002, the Courts were short approximately 48,000 square 
feet for operations, with a shortfall of 134,000 square feet projected 
in the next decade.
    A recently completed Master Plan for D.C. Court Facilities secured 
by the GSA defined the 134,000 square foot space shortfall facing the 
Courts and proposed to meet that need through three mechanisms: (1) 
renovation of the Old Courthouse for readaptive use by this 
jurisdiction's court of last resort, the District of Columbia Court of 
Appeals, which will to free space in the Moultrie Courthouse for trial 
court operations; (2) construction of an addition to the Moultrie 
Courthouse, a major portion of which will be developed as a separately 
accessible Family Court facility; and (3) the future occupation of 
Building C, adjacent to the Old Courthouse.
    The restoration and readaptive use of the Old Courthouse for the 
District of Columbia's highest court, the Court of Appeals, is pivotal 
to meeting the space needs of the court system. Investment in the 
restoration of the Old Courthouse will improve efficiencies by co-
locating the offices that support the Court of Appeals and by providing 
37,000 square feet of critically needed space for Superior Court and 
Family Court functions in the Moultrie Courthouse. The Moultrie 
Courthouse is uniquely designed to meet the needs of a busy trial 
court. It has three separate and secure circulation systems--for the 
judges, the public, and the large number of prisoners present in the 
courthouse each day. Built in 1978 for 44 trial judges, today it is 
strained beyond capacity to accommodate 62 trial judges and 24 
magistrate judges in the trial court and 9 appellate judges, as well as 
senior judges and support staff for the two courts. Essential District 
criminal justice and social service agencies also occupy office space 
in the Moultrie Courthouse. It is needless to say that the Courts have 
outgrown the space available in the Moultrie building. The space is 
inadequate for this high volume court system to serve the public in the 
heavily populated metropolitan area in and around our Nation's Capital. 
The Courts require well-planned and adequate space to ensure efficient 
operations in a safe and healthy environment.
    The historical and architectural significance of Judiciary Square 
lends dignity to the important business conducted by the Courts and at 
the same time complicates somewhat any efforts to modernize or alter 
the structures. Judiciary Square is of keen interest to the Nation's 
Capital. The National Capital Planning Commission is requiring that the 
Courts develop a Master Plan for Judiciary Square--essentially, an 
urban design plan--before construction can be commenced in the area. 
The D.C. Courts are working with all stakeholders on the Plan, 
including the United States Court of Appeals for the Armed Forces, the 
National Law Enforcement Museum, the Newseum, and the Metropolitan 
Police Department.
    The Old Courthouse, the centerpiece of the historic Judiciary 
Square, is one of the oldest buildings in the District of Columbia. 
Inside the Old Courthouse, Daniel Webster and Francis Scott Key 
practiced law, and John Surratt was tried for his part in the 
assassination of President Abraham Lincoln. The architectural and 
historical significance of the Old Courthouse, built from 1821 to 1881, 
led to its listing on the National Register of Historic Places and its 
designation as an official project of Save America's Treasures. The 
structure is uninhabitable in its current condition and requires 
extensive work to meet health and safety building codes and to readapt 
it for use as a courthouse. Since it has been vacated, thanks to the 
support of Congress, we have been able to take steps to prevent its 
further deterioration. This project will not only meet the critical 
needs of the Courts by serving as the new site for the Court of 
Appeals; it will also impart new life to one of the most significant 
historic buildings in Washington, DC. It will meet the needs of the 
Courts and benefit the community through an approach that strengthens a 
public institution, restores a historic landmark, and stimulates 
neighborhood economic activity.
    Buildings A, B, and C, dating from the 1930's, are situated 
symmetrically along the view corridor comprised of the National 
Building Museum, the Old Courthouse, and John Marshall Park and form 
part of the historic, formal composition of Judiciary Square. These 
buildings have been used primarily as office space in recent years, 
with a number of courtrooms in operation in Building A. Work is 
underway to move the Superior Court's two highest volume courtrooms, 
Small Claims and Landlord and Tenant, into Building B by year's end. 
This move will free much needed space in the Moultrie Building for 
development of the Family Court, which will include three new 
courtrooms, three new hearing rooms, a centralized intake facility, a 
family-friendly waiting area and District liaison offices for Family 
Court matters.
    The H. Carl Moultrie I Courthouse, built in the 1970's, while not 
historic, is also located along the view corridor and reinforces the 
symmetry of Judiciary Square through its similar form and material to 
the municipal building located across the John Marshall Plaza. 
Currently the Moultrie Courthouse provides space for most Court of 
Appeals, Superior Court, and Family Court operations and clerk's 
offices, as previously described.
    The Courts have been working with GSA on a number of our capital 
projects since fiscal year 1999, when we assumed responsibility for our 
capital budget from the District's Department of Public Works. In 1999, 
GSA produced a study for the renovation and readaptive use of the Old 
Courthouse. Later, in 2001, GSA prepared Building Evaluation Reports 
that assessed the condition of the D.C. Courts' facilities. These 
projects culminated in the development of the first Master Plan for 
D.C. Courts Facilities, which delineates the Courts' space requirements 
and provides a blueprint for optimal space utilization, both in the 
near and long term.
    As we embark on projects of the large scope envisioned by the 
Master Plan for Facilities, we are particularly pleased to have the 
General Services Administration and its teams of construction and 
procurement experts working with us. We appreciate GSA's presence and 
participation this morning to provide detailed information on these 
projects that are so important to the administration of justice in our 
Nation's Capital.
                       master plan for facilities
    The Master Plan for D.C. Courts Facilities incorporates significant 
research, analysis, and planning by experts in architecture, urban 
design and planning. During this study GSA analyzed the Courts' current 
and future space requirements, particularly in light of the 
significantly increased space needs of the Family Court. The Master 
Plan examined such critical issues as: alignment of court components to 
meet evolving operational needs and enhance efficiency; the impact of 
the D.C. Family Court Act of 2001 (Public Law Number 107-114); 
accommodation of space requirements through 2012; and planning to 
upgrade facilities, including, for example, security, 
telecommunications, and mechanical systems. The Plan identified a space 
shortfall for the Courts over the next decade of 134,000 occupiable 
square feet, and proposed to meet that need through three approaches: 
(1) renovation of the Old Courthouse for readaptive use by the D.C. 
Court of Appeals, which will free space in the Moultrie Courthouse for 
trial court operations; (2) construction of an addition to the Moultrie 
Courthouse, to meet the needs of the Family Court; and (3) reoccupation 
of Building C, adjacent to the Old Courthouse. In addition, the Plan 
determined that other court facilities must be modernized and upgraded 
to meet health and safety standards and to function more efficiently.
                    family court in the master plan
Interim Family Court Space Plan
    The Master Plan incorporates an Interim Space Plan for the Family 
Court that provides the facilities necessary to fully implement the 
Family Court Act, as well as a long term plan that optimizes space and 
programmatic enhancements for the Family Court. The Interim Space Plan 
for Family Court will be complete in the fall of 2004. As this Interim 
Space Plan proceeds towards completion, procedural changes have been 
implemented within the Family Court to meet the requirements of the 
Family Court Act. I believe Mr. Nelson from GSA plans to describe the 
status of the Interim Plan, which was detailed in the Family Court's 
April 5, 2002 Transition Plan. Therefore, I will mention only briefly 
the essential components of the Interim Plan.
  --During fiscal year 2002 the Courts constructed and reconfigured 
        space in the Moultrie Courthouse to accommodate the nine new 
        Family Court magistrate judges and their support staff. The 
        Courts also constructed four new hearing rooms for Family Court 
        magistrate judges hearing child abuse and neglect cases, and 
        renovated space for the Mayor's Services Liaison Office.
  --A key element of the Family Court Interim Space Plan is the JM-
        level construction in the Moultrie Courthouse of three new 
        courtrooms, three new hearing rooms, the Mayor's Services 
        Liaison Office, a Centralized Family Court Filing and Intake 
        Center, a family-friendly child waiting area, and a new Family 
        Court entrance from the John Marshall Plaza to the Moultrie 
        Courthouse. In addition, the corridors and hallways along the 
        courthouse's JM-level will be redesigned and upgraded to create 
        family-friendly seating and waiting areas.
    As stated previously, the JM-level construction will be complete in 
the latter part of 2004, marking the implementation of the Interim 
Plan. When the renovation of the first floor of Building B is complete 
(fall 2003), the Small Claims and Landlord & Tenant courts and clerk's 
offices will be relocated from the JM level of the Moultrie Courthouse 
to Building B, and Family Court construction will begin on the JM 
level.
Long Term Plan
    The long term plan includes expansion of the Moultrie Courthouse. 
Once complete, it will provide a state-of-the-art, family-friendly 
facility for Family Court operations, with its own identity and 
separate entrance, which will be a model for the Nation. We envision a 
safe facility designed to alleviate the inevitable stresses on the 
families who come to the courthouse seeking justice. We want the Family 
Court to be inviting and welcoming to families with small children, to 
families with teenagers, to all families. We envision a customer-
friendly facility that incorporates the ``one-stop'' concept by 
locating all related court units in one place and making it easier for 
families to access needed social services from D.C. government 
agencies. The interim Family Court plans are designed to transition 
smoothly into this long term plan and to maximize the efficient use of 
time and money.
                  capital funding in fiscal year 2004
    To permit the Courts to continue to meet the needs of the community 
and the demands confronting the District's judicial branch, adequate 
resources are essential. The most critical issue we face today is 
sufficient capital funding to address the Courts' severe space shortage 
and aging infrastructure. Only by investing in these critical areas 
will the Courts be in a position to ensure that the type of security 
necessary to protect our citizens and our institution is in place, and 
that our facilities are in a safe and healthy condition and reasonably 
up-to-date. Unless infrastructure needs are addressed, the functional 
capability of the Courts will decline and the quality of justice in the 
District of Columbia will be compromised.
    Based on figures from GSA, which reflect the current approach to 
our major construction projects, the Courts' capital budget request for 
fiscal year 2004 is $52,889,000, comprised of the following projects:

------------------------------------------------------------------------
 ------------------------------------------------------------------------
Courtrooms and Judges Chambers........................        $1,950,000
HVAC, Electrical and Plumbing Upgrades................        16,220,000
Restoration of Old Courthouse (complete garage                 4,519,000
 construction)........................................
Restroom Improvements.................................         1,100,000
Elevator and Escalator................................         2,000,000
Fire and Security Alarm Systems.......................         6,500,000
General Repair Projects...............................         7,740,000
Moultrie Courthouse Expansion.........................         1,200,000
Master Plan Implementation--Development Studies.......           550,000
Integrated Justice Information System.................        11,110,000
                                                       -----------------
      Total...........................................        52,889,000
------------------------------------------------------------------------

    GSA has been working with us on the two major, multi-year projects 
to provide the majority of the additional space needed to meet the 
134,000 occupiable square feet deficit identified in the Master Plan 
for facilities: Restoration of the Old Courthouse and Expansion of the 
Moultrie Courthouse. Over the next 2 fiscal years, 2004 and 2005, these 
projects will require $117 million. As both projects are currently in 
the design procurement phase, GSA will require the majority of these 
funds in fiscal year 2005, when the major construction contracts are 
finalized. In addition, to implement future projects required by the 
Master Plan, development studies will be needed in fiscal year 2004; 
these have been added to our capital budget request. I understand that 
Mr. Nelson from GSA plans to provide more detail on the current status 
of these projects.
    Restoration of the Old Courthouse will provide space for the D.C. 
Court of Appeals, the District's court of last resort. Restoring this 
historic landmark will help meet the urgent space needs of the 
appellate court and the entire court system and will preserve the rich 
history of this building for future generations. When the Court of 
Appeals vacates its current space in the Moultrie Courthouse, 
approximately 37,000 square feet will become available for Superior 
Court and Family Court operations. The Old Courthouse project includes: 
restoration of the Greek Revival building; construction of additional 
underground office and courtroom space, and a new entrance to the north 
on E Street; and, as authorized by Public Law 106-492, construction of 
a secure parking facility to be shared with and connected to the U.S. 
Court of Appeals for the Armed Forces, which is adjacent to the Old 
Courthouse.
    The Moultrie Courthouse Expansion is comprised mainly of additions 
presently planned for the south side (C Street) and Indiana Avenue 
entrance of the courthouse. The C Street addition will result in the 
expansion of five floors in the Moultrie building. The ground level 
floors of the addition will enhance the Family Court by providing a new 
courthouse entrance solely for Family Court, additional child 
protection mediation space, increased Child Care Center space, and safe 
and comfortable family-friendly waiting areas. The C Street addition 
also will permit the Courts to consolidate family-related operations in 
one central location, including juvenile probation functions and 
District government social service agencies that provide needed 
services to families and children in crisis. The upper level floors of 
the addition will meet critical space needs for other Superior Court 
operations.
    The remainder of the Courts' fiscal year 2004 capital budget 
request includes funding to: continue the implementation of the 
Integrated Justice Information System (IJIS); enhance the security, 
health and safety of the public using court facilities; and maintain 
our deteriorating infrastructure. These important projects were 
discussed in my March 12th testimony, and their funding requirements 
remain as originally submitted.
                               conclusion
    Mister Chairman, Senators, again, thank you for this opportunity to 
discuss the Courts' capital budget request. We look forward to working 
with you throughout the appropriations process. Chief Judge King, Ms. 
Wicks, Mr. Sanchez, and I would be pleased to address any questions.

    Senator DeWine. Judge, thank you very much. Let me start by 
asking, to carry out this plan, you've got a real spike up in 
costs next year, 2005, and this is just not going to happen, 
frankly, unless the President puts it in his budget. We all 
know that. What has been your communication with OMB about 
this?
    Chief Judge Wagner. Good question. While I have not have 
had any recent communication with OMB about this, what I was 
told was, it is not a question of whether funding will be 
recommended for one of the first phases, which is the 
readaptive use of 451 Indiana Avenue, the Old Courthouse, but a 
question of when. We have shared our master plan in a full 
briefing in May, I mean our staff has done that. In terms of 
the principals meeting with the leadership of OMB, that's a 
different matter. They are always made aware of our budget 
requests and what the purpose of the capital funding is, and 
our staff briefed them in a full briefing in May.
    Senator DeWine. What kind of reaction did your staff get?
    Chief Judge Wagner. Well, that's a good question, and I 
might ask Ms. Wicks to respond to that. But the reaction that 
I've gotten has always been it's not a question of if, it's a 
question of when, and we know that the country has other needs, 
but this country always preserves its historic treasures, its 
symbols of its democracy, and in this case it can be used for 
that purpose. So if that phase gets off the ground, we have the 
Family Court support, I think that we can all accomplish this 
if we work together over the next few years.
    Senator DeWine. Why don't you step up and identify yourself 
for the record.
    Ms. Wicks. I am Anne Wicks, the Courts' Executive Officer. 
We briefed the Congressional staff in May, a full briefing of 
our plans. We also, in October, did our fiscal year 2004 budget 
submission to OMB, and did a full briefing.
    Senator DeWine. That was when?
    Ms. Wicks. In October of this past year. At that time, OMB 
felt that we weren't quite far enough along in the planning and 
study for the capital projects. Since that time, as you all are 
aware, we have completed the D.C. Courts' Master Plan for 
Facilities, at the first of this year, which has been provided 
to OMB. We are now at the point where we are nearly complete 
with the Judiciary Square Master Plan, the first draft of that 
plan will actually be presented in part tomorrow to the 
National Capital Planning Commission.
    So we're at the point now where OMB should have information 
so that they feel we are very far along, and we are setting up 
a meeting with OMB and GSA representatives to go through and 
show them that we do have detailed plans at this point.
    Senator DeWine. That's going to be at what level?
    Ms. Wicks. Well, we will be meeting with Mark Schwartz, who 
is the branch chief, and then after we brief him, I would hope 
that he would help us set up something, as far as meetings 
which will help us with this.
    Senator DeWine. Well, I can't say this in--there aren't 
strong enough words for me to urge you, Judge Wagner, Judge 
King, you're going to have to go sell this. It is not going to 
happen unless OMB is on board. It does not make me particularly 
happy that they have that much power, but that is what the 
facts are. If the Administration does not come forward next 
year with this in their budget, it will not happen. This is a 
chunk of money.
    Now, I happen to support it, I think it's very important, I 
think you have a plan, I think it's a viable plan, I think it's 
essential for the future of the District of Columbia, the court 
system. But if you don't sell it to OMB and sell it to the 
Administration, it will not happen. Would you like to comment 
on that?
    Chief Judge Wagner. That's an excellent reminder, Senator, 
and I appreciate that, and I guess my experience in the past 
has been consistent with what you just stated, and we will make 
every effort to make that happen at the executive branch.
    Senator DeWine. Okay. I mean, it's just not going to 
happen, GSA can't make it happen, and unless it comes up to the 
level in that budget, it's just not going to happen. So, it 
needs to come up here with the Administration strongly behind 
it for it to have any chance of being done.

                 FISCAL YEAR 2005 FUNDING REQUIREMENTS

    And you know, that's where we have a major thrust on this, 
I believe is 2005, isn't it? We're talking about how much money 
in 2005, Mr. Nelson?
    Mr. Nelson. Yes, in fiscal year 2005 for the D.C. 
courthouse project, we're looking at $62.6 million, and for the 
Moultrie Courthouse expansion, we're looking at $48.9 million, 
for fiscal year 2005.
    Senator DeWine. Now if you don't get that, what happens?
    Chief Judge Wagner. For the capital budget request?
    Senator DeWine. Right, what Mr. Nelson just said.
    Chief Judge Wagner. Well, I don't think that, if you're 
talking about for 2004, I'd like to----
    Senator DeWine. I'm talking about 2005. I mean, what I'm 
saying is you have to be worried, I'm worried about 2004, but 
I'm also saying, they're thinking about 2005 now. They have 
already submitted 2004. You know, you need to be on dual 
tracks, you need to be worried about 2004, but you also need to 
be worried with OMB about 2005, and unless you start to make 
the case with people at OMB who are going to be ultimately 
deciding your fate and unless somebody--you know, you need to 
get out there, you need to be traveling around with them, you 
need to be showing them around. You need them to see your 
vision and unless they get it, it's pretty easy to say well, 
that's just a lot of money and we can't do it.
    Chief Judge Wagner. Senator, we're going to work on that, 
and I'm glad you reminded us. We have done this type of 
strategy before, and I think that we can get support from the 
White House and OMB.
    Senator DeWine. Well, I pray that you can but I just want 
to put it into perspective. $118 million would be one-fourth of 
the entire District of Columbia Subcommittee, our 
subcommittee's allocation. Now think about that. Now I'm for 
you, I am for it. You don't have to sell Mike DeWine and I 
don't think you have to sell Mary Landrieu. Don't spend your 
time worrying about us.
    Go talk to the Administration. Go talk to OMB. Spend a lot 
of time talking to them.
    Chief Judge Wagner. We will do that, and we appreciate your 
support.
    Senator DeWine. I'm for you, it has to get done. If it 
doesn't get done now, it will have to get done later. We have 
kids to worry about, we have projects to deal with, it has to 
get done, but you have to go sell them.
    Let me move to a more immediate problem, and that is soon 
enough, but let me move to a more immediate problem. Given that 
the President's budget request is $36.6 million less than what 
you are requesting, what are we going to do, or what are you 
going to do if we can't deliver that money for you and if you 
end up with, this subcommittee and this Congress ends up giving 
you exactly what the President has requested? And that, let me 
just tell you, is a distinct possibility. I'm not happy to tell 
you that.
    Judge King, Judge Wagner, let's just assume that you get 
what the President says you should get. So that's 36, by my 
calculation, $36.6 million less than you want, or maybe a 
better way of saying that is less than you requested. I'm sure 
you want more than that, but less than you requested. So what 
gets cut?
    Chief Judge Wagner. Well, I am saying it would have a 
significant impact on some critical areas.
    Senator DeWine. Well, tell me what.
    Chief Judge Wagner. The Moultrie building has about 10,000 
people coming through it every day. Since September 11th 
everyone has been concerned about safety and security, as we 
have. A part of the funding that we have requested, which we 
would not be able to do if the President's numbers were enacted 
would be to increase the number of court security officers for 
our court building. We would not be able to finance other 
facilities, security improvements, which are detailed in our 
study, that is the monitors, the audio-video devices, the types 
of things that you need to upgrade security in these kind of 
uncertain times.
    We need to invest in our implementation of the IJIS system, 
Integrated Justice Information System, and some $4 million we 
would not have in order to do that. We wouldn't be able to 
enhance our strategic planning which is going to guide our 
progress over the next 5 years. We wouldn't be able to invest 
further in accurately creating trial records, which is critical 
to a court of record. We asked for $1,624,000 to improve the 
record of court proceedings. Those are just some of the items 
that we have requested that I think are critical to our 
functioning in the next fiscal year.
    Senator DeWine. Well, I think it would be helpful for this 
subcommittee if you prepared--I know we have just hit you with 
this orally, but I think today--well, you have obviously seen 
the President's budget before today, but we're going to need 
from you, and if we are able to see if this is what you end up 
with, we need to see a more detailed description of where 
you're going to go.
    Chief Judge Wagner. I'm sorry?
    Senator DeWine. I need to see a more detailed description 
of where you want to go, assuming that's what you end up with.
    Chief Judge Wagner. We will be glad to submit that.
    Senator DeWine. Why don't you submit that for us please.
    What were your discussions with OMB in regard to your, the 
2004 budget preparation? I'm looking at this pretty significant 
cut. What were your discussions with OMB?
    Chief Judge Wagner. I think Ms. Wicks could answer that.
    Senator DeWine. I would be interested in what kind of input 
they had from you.
    Ms. Wicks. We provided them with a full budget submission 
as we provided to Congress, detailing all of our budgetary 
needs. We also provided them with studies and reports that 
supported various parts of our budget request.
    Senator DeWine. Did you have face-to-face contact with 
them? Did you do interviews with them? I'm interested in the 
process.
    Ms. Wicks. I understand. I can't recall specifically this 
past October, whether we did sit down with and meet with them 
and walk through the budget. We had done face to face meetings 
with them over the summer for the capital request and the space 
planning. I can't recall, once we hit the fall and submitted 
the full request. I believe at the time OMB had already started 
the process; I think the President had speeded up the process 
for them this year because of other issues, and so I think they 
were very far along by the time we met with them.
    Senator DeWine. Who would they have dealt with, you?
    Ms. Wicks. They would have dealt with me and our Fiscal 
Officer and staff in our offices.
    Senator DeWine. Well, you would have remembered if they had 
talked to you, wouldn't you?
    Ms. Wicks. Well, I have so many meetings in a day, I don't 
recall sitting down face to face with them at the time we 
submitted the budget, but I do recall face to faces prior to 
that.
    Senator DeWine. Do you recall talking to them on the phone?
    Ms. Wicks. Absolutely.
    Senator DeWine. What were they interested in?
    Ms. Wicks. They were interested in more detailed plans and 
reports on the facilities issues. We had several telephone 
conversations in October trying to appeal the President's 
budget and talking through what we felt were priority issues 
for the year for reconsideration on appeal. Our focus was 
security issues, facility issues primarily, for the courthouse. 
We sent over security studies, the U.S. Marshals Service had 
done surveys and studies of our building because they provide 
primary security in the building. And we provided as much 
information as we could--we sent over a box of reports and 
information during the appeal process. We tried to talk through 
with them what we felt about the importance of the issues.
    And we actually, I recall being advised by them that the 
Courts should consider themselves lucky because we did get a 
slight increase in the President's budget compared to the 2003 
level, where other agencies got nothing or got cut, so that was 
their response to us.
    Senator DeWine. Well, as I said, Judge, I'm interested in 
getting from you a summary, at least, of where you would make 
your cuts in regard to your proposal versus the President's 
funding level.
    Chief Judge Wagner. We will submit that for you, Mr. 
Chairman.
    [The information follows:]

   D.C. COURTS CAPITAL REQUEST, FISCAL YEAR 2004--PRELIMINARY ADJUSTMENTS FROM COURTS' REQUEST TO PRESIDENT'S
                                                 RECOMMENDATION
----------------------------------------------------------------------------------------------------------------
                                                                      Courts'       Preliminary     President's
                                                                      Request       Adjustments   Recommendation
----------------------------------------------------------------------------------------------------------------
Courtrooms and Judges Chambers..................................      $1,950,000  ..............      $1,950,000
HVAC, Electrical and Plumbing Upgrades..........................      16,220,000    ($7,450,000)       8,770,000
Restoration of Old Courthouse at 451 Indiana Avenue.............       4,519,000  ..............       4,519,000
Restroom Improvements...........................................       1,100,000  ..............       1,100,000
Elevator and Escalator..........................................       2,000,000     (1,000,000)       1,000,000
Fire and Security Alarm Systems.................................       6,500,000     (6,500,000)  ..............
General Repair Projects.........................................       7,740,000  ..............       7,740,000
Moultrie Courthouse Expansion...................................       1,200,000     (1,200,000)  ..............
Master Plan Implementation--Development Studies.................         550,000  ..............         550,000
Integrated Justice Information System...........................      11,110,000     (5,088,000)       6,022,000
                                                                 -----------------------------------------------
      Total.....................................................      52,889,000    (21,238,000)      31,651,000
----------------------------------------------------------------------------------------------------------------

              COMPARISON OF COURTHOUSE CONSTRUCTION PLANS

    Senator DeWine. Thank you. Mr. Nelson, let me ask you, if 
you look at construction plans for the Courts in the District 
of Columbia, how does that compare with the courthouse 
construction plans in other States or other cities? Is that 
possible to compare them? I know this is kind of maybe in some 
respects more complex, at least to me it looks complex.
    Mr. Nelson. That's a good question, and it depends how 
complex the courts projects are, but in the size that we're 
dealing with, a design time frame for court projects usually is 
about 14 to 18 months, and then construction depending on the 
size, is about 24 months to 36 months, 2 years to 3 years for 
construction.
    This is complex for the Moultrie Courthouse because of the 
additions that we're doing. You have an occupied building that 
we will be dealing with. We tried to work on the schedules for 
the projects so we could fine tune them where we get them done 
as quickly as we could, because they were stressing the need 
that they needed for the project, and I think we have a 
realistic schedule for the design for the Old D.C. Courthouse 
and for the Moultrie Courthouse.

                     PHASING OF CONSTRUCTION FUNDS

    Senator DeWine. So the summary, though, would be what? This 
doesn't look out of the ordinary?
    Mr. Nelson. No, it does not look out of the ordinary. For 
the renovation work for D.C. Courts, it looks like it fits in 
line with what we would be doing for a renovation projects. And 
then for the additions that we're doing for Moultrie, they look 
in line with the time frame for other projects.
    Senator DeWine. This looks like a big chunk in one year. 
Why is that? Why is there such a big chunk in 2005? Can that be 
dealt with in some other way or is that just the way, is that 
the way that it's preferred to deal with? Explain that to me. 
Who prefers to deal with it that way, is that the courts or is 
that you?
    Mr. Nelson. I think it's how the master plan has been laid 
out.
    Senator DeWine. But why was it laid out that way, is my 
question. Whose preference is it?
    Mr. Nelson. Well, it's the Courts' preference for how 
they're going to be moving people while the renovation gets 
completed, and then when the work gets done in Moultrie 
Courthouse, so there is a domino effect between those two 
buildings for moving people around.
    Senator DeWine. Maybe I wasn't clear. Could you spread that 
money out over time, is my question. For budget purposes, could 
you spread that out?
    Mr. Nelson. For awarding construction projects, you have to 
have all your construction funds in the fiscal year that you 
make the award. And right now, both of those projects are 
scheduled.
    Senator DeWine. Is that your rule?
    Mr. Nelson. It is a requirement in OMB Circular A-11, 
insstructions for preparing the budget.
    Senator DeWine. OMB's rule.
    So that's what we're dealing with?
    Mr. Nelson. Yes.
    Senator DeWine. So you have to have funds before you start 
the project?
    Mr. Nelson. Yes.
    Senator DeWine. That's not your problem, it's our problem.
    Mr. Nelson. Yes.
    Senator DeWine. And then they have to live with that 
basically.
    Mr. Nelson. Yes.
    Senator DeWine. All right, thank you all very much. Does 
anybody have any other comments? Judge Wagner.
    Chief Judge Wagner. I just want to thank you again for your 
support, for holding this hearing, for working with us on this, 
and we will try to work on that other branch to get help.

                          SUBCOMMITTEE RECESS

    Senator DeWine. Well, you work on them. Go sell.
    Mr. Nelson. Thank you.
    Senator DeWine. Thank you all very much.
    [Whereupon, at 10:50 a.m., Wednesday, April 30, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
